Appendix A

25

Case 2:18-cr-01677-SPL Document 27 Filed 06/10/19 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
United States of America

JUDGMENT IN A CRIMINAL CASE

V.

(For Offenses Committed On or After November 1, 1987)

Julian Silva-Aguilar

No. CR-18-01677-001-PHX-SPL
George Jacob Romero (FPD)
Attorney for Defendant

US!\-1#: 05200-508

ICE# A088700422

THE DEFENDANT ENTERED A PLEA OF guilty on 12/20/2018 to Count l of the Information.
ACCORDINGLY, THE COURT HAS ADJUDICATED THAT THE DEFENDANT IS GUILTY
OF THE FOLLOWING OFFENSE(S): violating Title 8, U.S.C. § l326(a), Reentry of Removed Alien,
with sentencing enhancement pursuant to Title 8, U.S.C. § l 326(b)(1), a Class C Felony offense,, as
charged in Count l of the Information.
IT IS THE JUDGMENT OF THIS COURT THAT the defendant is committed to the custody of the
Bureau of Prisons for a term of SIXTY (60) MONTHS, with credit for time served. Upon release from
imprisonment, the defendant shall be placed on supervised release for a tenn of THIRTY-SIX (36)
MONTHS.
CRIMINAL MONETARY PENALTIES
The defendant shall pay to the Clerk the following total criminal monetary penalties:

SPECIAL ASSESSMENT: 100.00

FINE: WAIVED

RESTITUTION: NIA

The defondant shall pay a total of$ 100.00 in criminal monetary penalties, due immediately. Having
assessed the defendant's ability to pay, payments of the total criminal monetary penalties are due as
follows: Balance is due in equal monthly installments of $25.00 over a period of four months to
commence 60 days after the release from imprisonment to a term of supervised release.
The Court finds the defendant does not have the ability to pay a fine and orders the fine waived.

SUPERVISED RELEASE
It is ordered that while on supervised release, the defendant must comply with the mandatory :md
standard conditions of supervision as adopted by this court, in General Order 17-18, which incorporates
the requirements ofUSSG §§ 5B 1.3 and 5D 1.2. Of particular importance, the defendant must not commit
another federal, state, or local crime during the term of supervision. Within 72 hours of sentencing or
release from the custody of the Bureau of Prisons the defendant must report in person to the Probation

26

Case 2:18-cr-01677-SPL Document 27 Filed 06/10/19 Page 2 ?f 4

CR-18-01677-001-PHX-SPL
USA vs. Julian Silva-Aguilar

Page 2 of 4

Office in the district to which the defendant is released. The defendant must comply with the following
conditions:

MANDATORY CONDITIONS
1)
2)
3)

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance. The use or possession of marijuana, even
with a physician's certification, is not pennitted.
You must refrain from any unlawful use of a controlled substance. The use or possession of
marUuana, even with a physician's certification, is not permitted. Unless suspended by the Court,
you must submit to one drug test within 15 days of release from imprisonment and at least two
periodic drug tests thereafter, as determined by the court.

STANDARD CONDITIONS
l)

2)

3)
4)
5)

6)

7)

You must report to the probation office in the federal judicial district where you are authorized to
reside within 72 hours of sentencing or your release from imprisonment, unless the probation
officer instructs you to report to a different probation office or within a different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the
probation officer about how and when you must report to the probation officer, and you must
report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside
without first getting permission from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live
or anything about your living arrangements (such as the people you live with), you must notify
the probation officer at least IO days before the change. If notifying the probation officer in
advance is not possible due to unanticipated circumstances, you must notify the probation officer
within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you
must permit the probation officer to take any items prohibited by the conditions of your
supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you do not have full-time employment you must
try to find full-time employment, unless the probation officer excuses you from doing so. If you
plan to change \.vhere you work or anything about your work (such as your position or your job
responsibilities), you must notif)' the probation officer at least 10 days before the change. If
notifying the probation officer at least 10 days in advance is not possible due to unanticipated

27

Case 2:18-cr-01677-SPL Document 27 Filed 06/10/19 Page 3 of 4
CR-l 8-01677-001-PHX-SPL
USA vs. Juhan Silva-Aguilar

8)

9)
10)

11)
12)

13)

Page 3 of 4

circumstances, you must notify the probation officer within 72 hours of becoming aware of a
change or expected change.
You must not communicate or interact \Vith someone you know is engaged in criminal activity. If
you know someone has been convicted of a felony, you must not knowingly communicate or
interact with that person without first getting the permission o f the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation
officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or
dang;erous weapon (i.e., anything that \vas designed, or was modified for, the specific purpose of
causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential
human source or informant without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an
organization), the probation officer may require you to notify the person about the risk and you
must comply with that instruction. The probation officer may contact the person and confirm that
you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.
SPECIAL CONDITIONS

The following special conditions are in addition to the conditions of supervised release or supersede any
related standard condition:
l)

If deported, you must not re-enter the United States without legal authorization.

THE COURT FINDS that you have been sentenced in accordance with the terms of the plea agreement
and that you have waived your right to appeal and to collaterally attack this matter. The waiver has been
knowingly and voluntarily made with a factual basis and with an understanding of the consequences of
the waiver.
The Court may change the conditions of probation or supervised release or extend the term of
supervision, if less than the authorized maximum, at any time during the period of probation or
supervised release. The Court may issue a ,varrant and revoke the original or any subsequent sentence
for a violation occurring during the period of probation or supervised release.
The Court orders commitment to the custody of the Bureau of Prisons.
The defendant is remanded to the custody of the United States Marshal.

28

Case 2:18-cr-01677-SPL Document 27 Filed 06/10/19 Page 4 of 4
CR-18-01677-001-PHX-SPL
USA vs. Julian Silva-Aguilar

Page 4 of 4

Date oflmposition of Sentence: :Monday, June 10, 2019
Dated this 10th day of June, 2019.

RETURN
I have executed this Judgment as follows:
defendant delivered on

--------

, the institution

to

designated by the Bureau of Prisons with a certified copy of this judgrnent in a Criminal case,
United States Marshal

(.,-1'· ! ,,., '

By:

Deputy Marshal

'',,._, ,,-Silva-Aguilar6/J0/2019-9:26AM

29

Case 2:18-cr-01677-SPL Document 28 Filed 06/10/19 Page 1 of 5
Rev fl 1/J 5) Statement of Reasons - Page I

AO 245(8)

DEFENDANT: Julian Silva-Aguilar
CASE NUMBER: CR- I 8-01677-001-PHX-SPL
DISTRICT: Arizona
STATEMENT OF REASONS
(Not for Public Disclosure)

Sections 1, II, llf, IV, and VII of the Statement of Reasons form must be completed in allfelony and Class A misdemeanor cases.

I. COURT FINDINGS ON PRESENTENCE INVESTIGATION REPORT
A. fgj The court adopts the pre.sentence investigation report without change.

B. D The court adopts the presentence investigation report with the following changes: (Use Section Viii ifnecessary)
(Che::lr. ail that apply a,,d specify co11rt de1ermina1,on. /indmg,, or ,·ommenls. referenc,ng paragraph numbers in the presenlence report)

Chapter Two of the l,nitcd States Sentencing Commission Guidelines Manual determinations by court {briefly summar1ze the

I.

IJ

2.

IJ

Chapter Three of the United States Sentencing Commission Guidelines Manual determinations by court (briefly summarize the changes

3.

CJ

Chapter Four of the United States Sentencing Commission Guidelinrs Manual detenninations by court (briefly summarize the changes,

4.

[J

cha11ges,inc/11ding changes to base offense level, or specijic q(fense charac1eristics):

including changes to victim-related aqjustmenrs, role in the offense, obstructwn ofjustice, multiple counts, or acceptance of responsibility).

including changes to criminal history category or scores, career q[/ender status, or criminal livelihood determinations).

Additional Comments or Findings (include comments or facf!J£Jlfindings concerning any information in die presenlence report, including

information that the Federal Bureau qf Prisons may rely 011 when it makes inmate classification, designmion, or programming decisions; any
other rubngs on disputed portions of the presentence investigation report, identification of those portions of the report in dispute butfor which a
court determination is unnecessa1y because the matter wilt not affect sentencing or the courr will not consider it):

C. 0 The record establishes no need for a presentence investigation report pursuant to Fed.R.Crim.P. 32,
Applicable Sentencing Guideline (if more than one guideline applies, list the guideline producing the highest offense level).·

II.

COURT FINDING ON MANDATORY MINIMUM SENTENCE (Check all that apply.)
A. 0

B. D

One or more counts of conviction carry a mandatory minimum term of imprisonment and the sentence imposed is at
or above the applicable mandatory minimum term.
One or more counts of conviction alleged in the indictment carry a mandatory minimum term of imprisonment, but
the sentence imposed is below a mandatory minimum term because the court has determined that the mandatory
minimum does not apply based on:
0 findings of fact in this case (Specify)

D

substantial assistance (18 U.S.C. § J553(e))

0 the statutory safety valve (18 U.S.C. § J553(f))
No count of conviction carries a mandatory minimum sentence.

III.

COURT DETERMINATION OF GUIDELINE RANGE (BEFORE DEPARTURES ORV ARIANCES):
Total Offense Level:

19

Criminal History Category:

IV.

VI
Guideline Range (after application of §5G lJ and §5G 1.2):
63
to
Supervised Release Range:
1
to
Fine Range:
$10,000.00
Fine
waived
or
below
the
guideline
range
because
of
inability
to pay.
l2]

78 months
3 years
$100,000.00
to

GUIDELINE SENTENCING DETERMINATION (Check allthatapplyJ

A. 0

B.
C.
D.

[J
�

□

The sentence is within the t',Uideline range and the difference between the maximum and minimum of the guideline range does not exceed 24
months.
The sentence is within the guideline range and the difference between the maximum and minimum of 1he guideline range exceeds 24 months, and
the specific sentence is imposed for these reasons: (Use Section Ill! ifnecessary)
The COUr1 epam from the guideline �ange for oior more reasons provided in the Guidelines Manual. (Also complete Section i'.)
�

The court imposed a sentence otherwise outside

1..

sentencing guideline system (1.e., a vanance). (,1/so complete Section VI)

30

··•

Case 2:18-cr-01677-SPL Document 28 Filed 06/10/19 Page 2 of 5
Rev (I !ll5) Statement of Reasons- Page 2

<1..0 245(8)

V.

DEPARTFRES PURSUANT TO THE GUfDELINES MANUAL (Ifapplicable.)
A.

B.

The sentence imposed departs (Check only one.):

D

above the guideline range

r8l

below the guideline range

Motion for departure before the court pursuant to (Check all that apply and specify reason(5) in sections C and D):
I.

C.

Plea Agreement

�

binding plea agreement for departure accepted by the court

D
D

plea agreement for departure, which the court finds to be reasonable
plea agreement that states that the government will not oppose a defense departure motion

0
D
0
0

government motion for departure
defense motion for departure to which the government did not object
defense motion for departure to which the government objected
joint motion by both parties

f.J

Other than a plea agreement or motion by the parties for departure

2.

Motion Not Addressed in a Plea Agreement

3,

Other

Reason(s) for Departure (Check all that apply):

D

4AL3

Criminal History Inadequacy

D

5K2.I

Death

D

5K2l2

Coercwn and Duress

(]

5HJ.l

Age

D

5K2.2

Physical Injury

C

5K2.13

Diminished Capacity

D

5Hl2

Education and Vocational Skills

5K2J

Extreme Psychological Injury

D

5K2.14

Public Welfare

□

Cl

SHU

Mental and Emotional Condition

D

Abduction or t.:n13wful Restraint

0

5K2.l 6

Voluntary Disclosure of Offense

D

5Hl.4

Physical Condition

5K2.5

Property Damage or Loss

D

5K2l7

□

□

5K2.<I

High-Capacity, Semiautomatic Weapon

5HL5

Ernrloymcnr Record

[]

5K2.6

Weapon or Dangerous Weapon

D

5K2.l8

YiolentStrect Gilllg

D

SHL6

Family Ties and Responsibilities

D

SK2.7

Disruption of Government Function

D

5K2.20

Aberrant Behavior

D

SHl.ll

Military Record

D

5K2.8

Extreme Conduct

D

5K2.21

Dismissed and Uncharged Conduct

D

SHl.ll

Charitable Service, Good Works

0

5K2 9

Criminal Purpose

D

5K2.22

Sex Offender Characteristics

0

SKI. I

Substantial Assistance

D

5K2.I0

Victim's Conduct

5K2.23

Discharged Terms of Imprisonment

D

5K2.0

Aggravating/Mitigating
Circumstances

[]

0

5K2.II

Lesser Harm

0

5K224

Unauthorized l nsignia

[8j

5K3.I

Early Disposition Program (EDP)

D

Other Guideline Reason(s) for Departure, to include departures pursuant to the commentary in the Guidelines Manual (see "List of Depa11ure Provisions" following the
Index in the Gujde)ines Manual) (Please specify).·

D.

State the basis for the departure. (Use Section VI!! ifnecessary)

31

Case 2:18-cr-01677-SPL Document 28 Filed 06/10/19 Page 3 of 5
AO 245(8)

VI.

Rev (l !/I 5) Statement of Reasons - Page 3
f

COURT DETERMINATION FOR A VARIANCE (/ appiicabte)
A.

The sentence imposed is (Check only one.j:
above the advisory guideline range
[J
below the advisory guideline range
[J

B.

Motion for a variance before the court pursuant to (Check all that apply and specify reason(J) in sections C and D):
l.

Plea Agreement

2..

D
bindin g plea agreement for a variance accepted by the court
plea agreement for a variance, which the court finds to be reasonable
D
plea agreement that states that the government will not oppose a defense motion for a variance
CJ
Motion Not Addressed in a Plea Agreement
D
0
D
D
Other
0

3.
C.
D

Other than a plea agreement or motion by the parties for variance

18 U.S.C. § 3553(a) and other reason(s) for a variance (Check all that apply)
The nature and circumstances of the offense pursuant to 18 U.S.C. § 3553(a)(I)

□
□

D

D

government motion for a variance
defense motion for a variance to which the government did not object
defense motion for a variance to which the government objected
joint motion by both parties

Mens Rea

O

Extreme Conduct

Role in the Offense

O

Victim Impact

CJ

Dismissed/Uncharged Conduct

General Aggravating or Mitigating Factors (Specify)

The history and characteristics of the defendant pursuant to 18 U.S.C. § 3553(a)(l)

D

Aberrant Behavior

0

Lack of Youthful Guidance

Age

D

Mental and Emotional Condition

Charitable/Good Works

0

Military Service

Community Ties

0

Non•-Violent Offender

Diminished Capacity

D

Physical Condition

D

Drug or Alcohol Dependence

D

Pre-sentence Rehabilitation

D

Employment Record

Remorse/Lack of Remorse

□

0

Family Ties and Responsibilities

0

Other (Specify);

D

Issues with Criminal History (Specify):

□
□
□

□

D

To reflect the seriousness of the offense, to promote respect for the law, and to provide just pW1ishment for the offense (] 8 U .S.C.
§ 3553(a)(2)(A))

D

To afford adequate deterrence to criminal conduct (I 8 U.S.C. § 3553(a)(2)(B))

D

To protect the public from further crimes of the defendant (18 U.S.C. § 3553(a)(2)(C)}

0

To provide the defendant with needed educational or vocational training (18 U.S.C. § 3553(a)(2)(D))

□

To provide the defendant with medical care (18 U.S.C. § 3553(a)(2)(D))

0

To provide the defendant with other correctional treatment in the most effective manner (l 8 U.S.C. § 3553(a)(2)(D))

32

Case 2:18-cr-01677-SPL Document 28 Filed 06/10/19 Page 4 of 5
Rev (l l/l5) Statement of Reasons -Page 4

AO 245(8)

D

To avoid unwarranted sentencing disparities among defendants(] 8 U.S.C. § 3553(a)(6)) (Specify in section DJ

0

To prc,vide restitution to any victims of the offense (I 8 U.S.C. § 3553(a)(7))

0

Accepance of Responsibility

D

Conduct Pre-trial/On Bond

O

Cooperation Without Government Motion for Departure

D

Early Plea Agreement

O

Global Plea Agreement

D

Waiver of Indictment

D

Time Served (not counted in sentence)

0

Waiver of Appeal

D

Policy Disagreement with the Guidelines (Kimbrough v. U.S., 552 U.S. 85 (2007). (Specify).

D

Other (Specify):

D.

VH.

State the basis for a variance. (Use Section VIII if necessary)

COURT JJETERMINATIONS OF RESTITUTION

A.

C� Restitution Not Ap plicable.

B.

Total Amount ofRestitution: $

C.

Restitution not ordered (Check only one.):

D.

D

!.

D

2.

□

3.

D

4.

0

5.

□

6.

D

For offenses for which restitution is otherwise mandatory under l 8 U.S.C. § 3663A, restitution is not ordered
because the number of identifiable victims is so large as to make restitution impracticable under 1 & U.S.C. §
3663A(c)(3)(A).
For offenses for which restitution is otherwise mandatory under 1 & lJ.S.C. § 3663A, restitution is not ordered
because determining complex issues of fact and relating them to the cause or amount of the victims' losses
would complicate or prolong the sentencing process to a degree that the need to provide restitution to any
victim would be outweighed by the burden on the sentencing process under 18 U.S.C. § 3663A(c) (3)(B).
For other offenses for which restitution is authorized under 18 U.S.C. § 3663 and/or required by the
sentencing guidelines, restitution is not ordered because the complication and prolongation of the sentencing
process resulting from the fashioning of a restitution order outweigh the need to provide restitution to any
victims under 18 U.S.C. § 3663(a)(l )(B)(ii).
For offenses for which restitution is otherwise mandatory under 18 U.S.C. §§ 1593, 2248, 2259, 2264, 2327
or 3663A, restitution is not ordered because the victim(s)'(s) losses were not ascertainable (18 U.S.C. §
3664(d)(5)).
For offenses for which restitution is otherwise mandatory under 18 U.S.C. §§ 1593, 2248, 2259, 2264, 2327
or 3663A, restitution is not ordered because the victim(s) elected to not participate in any phase of
determining the restitution order (18 U.S.C. § 3664(g)(l)).
Restitution is not ordered for other reasons. (Explain)

Partial restitution is ordered for these reasons (l8 U.S.C. § 3553(Lj):

33

'

AO 245(B)

VIII.

□

.

Case 2:18-cr-01677-SPL Document 28 Filed 06/10/19

Page 5 of 5

Rev (I Ill 5) Statement of Reasons - Page 5

ADDITIONAL BASIS FOR THE SENTENCE IN THIS CASE (ff applicable)
In the event the guideline detennination(s) made in this case are found to be incorrect, the court would impose a sentence
identical to that imposed in this case. (18 USC.§ 355J(a)).

Defendant's Soc. Sec. No.:
Defendant's Date ofBirth:
Defendant's Resi:1ence Address:

None

6/1/1988
----------

Date oflmposition of Judgment

6/10/2019

Guzman, Jalisco.. Mexico

_,..;__�.c,__..c..:.:_;_.;;._c__,________________

Defendant's Mailing Address:

Dated this 10th day of June, 2019.

n-::-f;=::---:-=.:;�-,,,9-=--_...:._-··---U nite.

34

